  S'ERV1CEs



                                                                                                                            Office of Inspector General
 ~~~~::	
(" ~ DEPARTMENT OF HEALTH & HUMA SERVICES
                                                                                  Washington, D.C. 20201




                                                                                                     OCT - 9 2008



              TO:	                   David Fran
                                     Director of Medicaid Integrity Group
                                     Centers for Medicare & Medicaid Services


              FROM:
                                      ~1lJ~
                                      Stuar Wright 0 -,,
                                     Deputy Inspector General
                                       for Evaluation and Inspections


              SUBJECT:	 Memorandum Report: "Medicaid-Funded Personal Care Services in
                                     Excess of24 Hours per Day," OEI-07-06-00621


              This memorandum report provides the results of our analysis of 	                        the total number of       hours
              biled for Medicaid-fuded personal care services (PCS) in five States. Our objective
              was to fuher examine the extent to which PCS claims may be vulnerable to payment

              errors because of biling practices identified in a related evaluation. To perform our
              analysis, we used claims data collected for the Office ofInspector General (DIG)
              evaluation entitled "Payments Made in Error for Personal Care Services During
              Institutional Stays" (OEl -07 -06-00620).

              That evaluation determined the extent to which five States made Medicaid payments for
              PCS during periods of beneficiar institutionalization and was focused on beneficiaries
              with overlapping institutional and PCS claims. We identified some payments made in
              error because the number ofPCS hours paid exceeded 24 hours per day. We therefore
              examined all paid PCS claims in the five States for those claims that included biling for
              units of services in excess of24 hours per day, irrespective of other services that
              beneficiaries were receiving (e.g., institutional services).

              We found 871 paid claims for PCS that were biled in excess of24 hours per day in four
              of the five States, indicating possible payment errors that may not have been identified by
              existing State controls. In addition, we found many other claims for PCS that totaled or
              nearly totaled 24 hours per day.

              BACKGROUND

              Medicaid Personal Care Services
              PCS are provided to the elderly, individuals with disabilities, and individuals with
              chronic or temporary conditions to assist them to remain in the community. The "State



              OEI-07-06-00621               Medicaid-Funded Personal Care Services in Excess of24 Hours per Day
Page 2 – David Frank


Medicaid Manual” describes PCS as assistance relating to eating, bathing, dressing,
toileting, transferring, maintaining continence, personal hygiene, light housework,
laundry, meal preparation, transportation, grocery shopping, using the telephone,
medication management, and money management.1
States may provide PCS to eligible Medicaid beneficiaries through State plan and waiver
programs, or through a combination of both. States that provide PCS through a State
plan program must conform to the general Medicaid program requirements outlined in
section 1902 of the Social Security Act. States have also provided PCS through
section 1115 demonstrations and through section 1915(c) Home and Community-Based
Services waiver programs.

State Medicaid programs are providing personal care and other home- and
community-based services to an ever-increasing number of Medicaid beneficiaries in
efforts to contain Medicaid spending and avoid beneficiary institutionalization. State and
Federal Medicaid expenditures for PCS reached $9.4 billion in 2005, an increase of
56 percent over 3 years.2 The Congressional Budget Office (CBO) estimates that by
2015, States with about a quarter of Medicaid enrollment will use provisions of the
Deficit Reduction Act of 2005 to extend personal care and other home- and
community-based services to an additional 120,000 beneficiaries.3

Section 1902(a)(30)(A) of the Social Security Act and 42 CFR 447.200 require States to
ensure that Medicaid payments are consistent with efficiency, economy, and quality of
care standards. Billing practices that may result in undetected overpayments for PCS are
not consistent with these requirements and represent a potential source of vulnerability
for payment errors.

METHODOLOGY

For our evaluation entitled “Payments Made in Error for Personal Care Services During
Institutional Stays” (OEI-07-06-00620), we collected Medicaid claims data from five
States for PCS provided from October 1 through December 31, 2005. The five States are
Minnesota, New Mexico, North Carolina, Texas, and Washington. We used these data to
conduct this analysis.

Identification of Paid Personal Care Services Claims in Excess of 24 Hours per Day
To identify claims in which providers billed Medicaid for more than 24 hours of PCS in a
day, we first determined the number of days covered by each claim. We then multiplied
the maximum number of billing units possible in a 24-hour period by the number of days




1
  The “State Medicaid Manual,” Pub. No. 45, § 4480(C). Available online at 

http://www.cms.hhs.gov/manuals/downloads/P45_04.zip. Accessed on January 16, 2008.

2
  Centers for Medicare & Medicaid Services (CMS), CMS-64 summary data for 2002 and 2005.

3
  CBO memorandum, “Additional Information on CBO’s Estimate for the Medicaid Provisions in the Conference Agreement for 

S. 1932, the Deficit Reduction Act of 2005.” January 31, 2006. Available online at
http://www.cbo.gov/ftpdocs/70xx/doc7033/s1932medic.pdf. Accessed April 16, 2008.

OEI-07-06-00621           Medicaid-Funded Personal Care Services in Excess of 24 Hours per Day
Page 3 – David Frank


covered by each claim. If a claim covered 3 days and the services were billed in
15-minute units, the maximum number of units possible during that timeframe would be
288 (96 units per day times 3 days). More than 288 units paid through this claim would
result in more than 24 hours of services per day. If a beneficiary had multiple claims for
PCS with the same date(s) of service, we combined the units billed on all claims with the
same date(s) to determine the total number of units billed.4 We then identified all claims
for which the total hours of services paid exceeded the maximum number of hours
possible for the day(s) included in the range of days covered by the claim. PCS claims
are generally billed in date ranges. Although some States require that PCS be provided
on every day included in the date range, other States allow the date ranges to include days
on which no services were provided. Because of this practice, our analysis provides a
conservative estimate of claims paid in error in the five States studied.

Limitations
This analysis was conducted as part of an effort to identify future OIG work. Therefore,
we used available data rather than requesting updated or additional data from the States
or the Centers for Medicare & Medicaid Services. The data we used did not include
per-unit payment rates for PCS. Without this information, we are unable to determine the
expenditures for services billed in excess of 24 hours per day.

Beneficiaries with serious medical conditions or exceptional needs may require many
hours of PCS per day and/or multiple PCS attendants, resulting in more than 24 hours of
services per day. Therefore, it is possible that claims billing for services in excess of
24 hours per day were paid appropriately. However, these situations would be rare, and
without conducting further review, we cannot determine the accuracy of these payments.

Standards
This study was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency.

RESULTS

In One Quarter, State Medicaid Programs in the Five States Reviewed Paid
871 Claims for PCS That Billed in Excess of 24 Hours per Day
In four of the five States, Medicaid paid 871 PCS claims that billed in excess of 24 hours
of services per day from October 1 through December 31, 2005. We did not have
sufficient information to determine how much of the $873,132 associated with these
claims was for services billed in excess of 24 hours of services per day. However,
22 percent of the total hours paid for these claims were in excess of the maximum
number of hours possible during the period covered by the claim. Although it is possible
that these claims were paid appropriately, without conducting further review, we cannot
determine the accuracy of these payments. Table 1 provides an overview of the claims
4
  To ensure the accuracy of our analysis, we limited the analysis to claims for PCS billed in units of 15 minutes or 1 hour. Claims
billed in units of 1 or more days were excluded from our analysis. Some State Medicaid programs pay PCS in daily or monthly units,
but the use of such units does not necessarily mean that PCS were provided every hour of that day or month. Rather, the provider is
paid a fee for services needed on the day or in the month billed, regardless of the hours of service that were provided.

OEI-07-06-00621             Medicaid-Funded Personal Care Services in Excess of 24 Hours per Day
Page 4 – David Frank


identified and Medicaid payments for PCS claims that billed in excess of 24 hours per
day.

Table 1: Medicaid Claims for PCS That Billed in Excess of 24 Hours per Day


State               PCS Claims for Services From October 1 Through December 31, 2005, in Five States


                      Number                         Total Paid Hours for      Hours in Excess of     Percentage of Hours
                                    Amount Paid
                     of Claims                             These Claims        Maximum Possible     in Excess of Maximum

Minnesota                  273          $507,129                   35,751                  4,431                    13%
New Mexico                 173          $115,795                    6,244                  1,852                    30%
North Carolina               0                  0                        0                     0                       0
Texas                      263          $190,620                   18,327                  7,360                    40%
Washington                 162           $59,588                    6,940                  1,420                    20%
   Total                   871          $873,132                   67,262                 15,063                    22%
Source: OIG analysis of Medicaid Management Information System claims data, 2008.


To further explore potential vulnerabilities present in Medicaid PCS claims, we also
examined claims that billed high hours per day but did not exceed the maximum possible
hours. In the five States, Medicaid paid 2,324 PCS claims that billed between 16 and
24 hours of services per day from October 1 through December 31, 2005. These claims
represent an additional $3,014,389 in potentially inappropriate payments. Table 2
provides an overview of the claims identified and Medicaid payments for PCS claims that
billed between 16 and 24 hours per day.

Table 2: Medicaid Claims for PCS That Billed Between 16 and 24 Hours per
Day


                          PCS Claims for Services From October 1 Through
 State
                          December 31, 2005, in Five States

                                  Number of Claimsi                   Amount Paidi
  Minnesota                                    1,767i                   $2,708,499i
  New Mexico                                     160i                        $96,162i
  North Carolina                                    36i                       $6,219i
  Texas                                             83i                      $49,874i
  Washington                                     278i                     $153,635i
    Total                                      2,324i                   $3,014,389i
 Source: OIG analysis of Medicaid Management Information System claims data, 2008.


Some States’ Billing Practices Create Vulnerabilities
The Minnesota, Texas, and Washington Medicaid programs allowed providers to bill for
PCS in date ranges that included days on which no services were provided, a practice that
makes it difficult to identify the number of PCS hours billed on any given day in a date
range. This practice also makes it difficult to identify PCS claims that billed in excess of
24 hours per day. For example, if the date range for a claim covers 4 days, up to
384 15-minute units could be appropriate. However, if the beneficiary received services
on only 2 of those days, a maximum of only 192 units would be appropriate. If the State

OEI-07-06-00621            Medicaid-Funded Personal Care Services in Excess of 24 Hours per Day
Page 5 – David Frank


allowed the provider to submit a claim including 2 days on which no services were
provided, any number of units up to 384 could appear appropriate, when in reality no
more than 192 units could be appropriate. Our evaluation of Medicaid payments for PCS
during periods of beneficiary institutionalization found that allowing providers to bill for
PCS in date ranges that could include institutional stays may render State controls
ineffective. One State was already in the process of implementing changes requiring
providers to submit claims with exact dates of services to ensure that its payment edits
would work in future institutional stays. Such a change could also help to prevent
payments for PCS claims billed in excess of 24 hours per day and identify “high hours”
claims that may need further evaluation.

CONCLUSION

The OIG report entitled “Payments Made in Error for Personal Care Services During
Institutional Stays” (OEI-07-06-00620) focused on Medicaid payments for PCS provided
during periods of institutionalization and noted the vulnerabilities associated with PCS
billed in date ranges that include days on which no services were provided. The report
recommended that CMS (1) enforce existing Federal Medicaid policies that prohibit
Medicaid reimbursement for PCS provided over a range of dates if the range includes
days on which the beneficiary was institutionalized and (2) work with States to reduce the
erroneous Medicaid payments for PCS during institutional stays. In light of the
additional analysis presented in this memorandum report, CMS may also want to
consider providing States with information regarding the vulnerability associated with
claims for PCS billed in excess of 24 hours per day and billing practices that permit
providers to submit PCS claims in date ranges that include days on which no services
were provided.

This memorandum report is being issued directly in final form because it contains no
recommendations. We will forward the Medicaid PCS claims we identified that billed
high hours per day under separate cover. If you have comments or questions about this
report, please provide them within 60 days. Please refer to report number
OEI-07-06-00621 in all correspondence.


cc:      J	 acquelyn White
         Director, Office of Strategic Operations and Regulatory Affairs
         Centers for Medicare & Medicaid Services




OEI-07-06-00621     Medicaid-Funded Personal Care Services in Excess of 24 Hours per Day
